@ - @ a
              On October 18, 1993, ~ r ,


      allegation of intellectual theft.
      Department of
     .-
                                     at
                                             -
                                        CLOSEOUT FOR M93 100053
                                                       -,
                            Program in the Division of -



                        This proposal was submitted by Dr. --
                                                                   a program officer ink-!h.et




                                                                                   the
                                                                                        in the Directorate of
      Biological Sciences, informed OIG that she had r e c e i v 5 m e r i t review containing a possible
                                                                                      faculty member in the
                                                                                       a review on proposal
                                                                                          subject and a faculty
      member-in th ----          -     - -                - ehatn t
                                             ~ e ~Ja r- t m                               -     --
     .         In his review of the proposal the complainant disagreed with t h e s ~ b ~ tproposed   's
      assessment of statistical methods for discriminating between                       features of different
      h          order to identify those unique to a particular-              The complainant alleged that
      7 ideas, each describing an approach or a criterion for automatically identifying a relevant subset
      of             in the subject's proposal had been used previously in a paper by the complainant.
      The complainant alleged that the subjwt had not referred ta that paper.

                  In its inquiry into this allegation OICi found that p r o p o s a l ~ w a asslightly
          revised version of a previously declined proposal submitted by the subject. OIG reviewed the
          complainant's paper and two prior, related publications, the subject's two proposals, and the
          reviews submitted by the mail reviewers and the panel members for the two proposals. The aim
          of the subject's two ro osals was to assess three competing statistical methods for
          discriminating between                These methods represent competing techniques in a newly
          emerging field of study within                A fourth method, promoted by the complainant, was
          excluded by the subject from his planned assessment. OIG found that both proposals contained
          a listing and brief description of the 7 approaches and criteria and that both proposals contained
          accurate references to the complainant's three papers (those reviewed by OIG, one of which was
          the focus of the complainant's allegation). The textual references to the complainant's
          publications were not in the same proposal section as the list of 7 ideas.

                  With the exception of the complainant, none of the mail or panel reviewers of the first
          proposal objected to the subject's exclusion of the complainant's method from this study. In the
          second proposal the subject strengthened his negative comments about the complainant's method
          and again excluded it from his planned assessment. Several of the mail reviewers who were
          familiar with the field, objected to the strength of the subject's assessment; however, none
          identified the approaches and criteria as originating with the complainant. It was in his review
          of the second proposal that the complainant made his allegation.

                  OIG found that the 7 ideas and their descriptions were relatively generic descriptions of
          logical approaches applied in statistical procedures. The subject's graduate student had pubLished
          papers applying one of the seven approaches. From the review of the proposals, papers, and
          peer reviews OIG determined that the complainant's papers and the subject's proposals were
          closely related because they addressed statistical methods in a narrow field of study; but, a direct
          connection between the complainant's paper and the material in the subject's proposals could not
          be found. OIG concluded that the subject and complainant were close competitors in a newly

                                                     Page 1 of 2
                              CLOSEOUT FOR M93100053
emerging field of study and that various PIS' works in such fields may contain overlapping
information and ideas. The use of common ideas and information is not prima facie evidence
of intellectual theft.

         In response to QTG's inquiries the complainant said that he had not considered the
subject's use of the ideas intellectual theft; rather, he had bmn upsttt that the subject had not,
in his view, sufficiently discussed the substance of the complainant's papers or provided
adequate citatian to them in his praposal, The complainant was unaware of the existing citations
to his work in the subject's proposal, Tbe complainant said that the 7 approaches and criteria
were generally understood statistical principles. He said that the subject had written a book on
statistical appraaches but that he, the complainant, had not rwd it. The complainant's statements
supported OIG's initial conclusion that the subject's use of the 7 approaches and criteria were
not evidence of intellctual theft.

        Therefore, OTG concludd that this case was an intellectual dispute betwoen two
competitors in a narrow, newly emerging field, Such disputes, in and of themselves, are not
misconduct in science and enginwring, OIG could not find any evidence to support the
allegation of intellectual theft and closed this case.




Staff Scientist, Oversight

Concurrence:




cc:    Signatories
       Inspector General


                                          Page 2 of 2
